CERTIFICATE OF SERVICE
NO. 20-148
Marvin Washington et al.
Petitioners
v.
William P. Barr et al.
Respondents
__________
STATE OF MASSACHUSETTS )
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say under penalty of perjury:
1. That I am over the age of 18 years and am not a party to this action. I am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
2. On the undersigned date, I served the parties in the above captioned matter with THE LAST
PRISONER PROJECT AMICUS AT PETITION STAGE IN SUPPORT OF PETITIONERS, by mailing three (3) true
and correct copies of the same by USPS Priority mail, postage prepaid for delivery to the following
addresses:
Michael Steven Hiller
Hiller, PC
641 Lexington Avenue, 29th Fl
New York, NY 10022
mhiller@hillerpc.com
Counsel for Petitioners

Jeffrey B. Wall
Acting Solicitor General
United States Department of Justice
950 Pennsylvania Avenue, NW, Room 5616
Washington, DC 20530-0001
supremectbriefs@usdoj.gov
Counsel for Respondents

Lucas DeDeus

September 11, 2020
SCP Tracking: Weinstein-PMB #368-Cover Cream

